      Additional Copies


      To obtain additional copies of this audit report, contact the Secondary Reports
      Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
      (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

      Suggestions for Audits


      To suggest ideas for or to request future audits, contact the Joint Logistics Audit
      Planning Group at      (703) 604-8939 (DSN 664-8939) or FAX (703) 604-8932. Ideas
      and requests can also be mailed to:


                       Inspector General, Department of Defense
                       OAIG-AUD (ATTN: APTS Joint Logistics Planning)
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884


      Defense Hotline


      To   report   fraud,   waste,   or   abuse,   contact   the   Defense   Hotline   by   calling

      (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
      by writing the Defense Hotline, The Pentagon, Washington DC 20301-1900. The
      identity of each writer and caller is fully protected.




Acronyms


DLA             Defense Logistics Agency
MME             Military Mission Essentiality
